                                                   UNITED STATES DEPARTMENT OF EDUCATION 

                                                        OFFICE OF INSPECTOR GENERAL 

                                                                             REGION V 

                                                                     III NORTH CANAL, SUITE 940 

                                                                       CHICAGO, ILLINOIS 60606 

                                                                                                                                                                     I
                                                                           FAX: (312) 353-0244
            Audit
       (312) 886-6503
                                                                                                                                                     Investigation
                                                                                                                                                    (312) 353-7891
                                                                                                                                                                     I


                                                                                             Control Number ED-OIG/A05-D0021


                    Mr. Thomas D. Watkins, Jr. 

                                                                                                           NOV 2 1 2003
                    Superintendent of Public Instruction 

                    Michigan Department of Education 

                    P.O. Box 30008 

                    Lansing, Michigan 48909 


                    Dear Mr. Watkins:

                    This Final Audit Report presents the results of our audit of the Detroit City School
                    District's (District) administration of Title I, Part A (Title I) ofthe Elementary and
                                                                                                      2
                    Secondary Education Act of 1965, as amended l (the Act), Set-Aside programs for the
                    period July 1,2002, through May 31,2003. Our objectives were to determine whether
                    the District (1) consulted with private school officials prior to making decisions
                    concerning Set-Aside services provided from Title I funding, and (2) provided equitable
                    Set-Aside services and other benefits to private school participants with Title I funds.

                    We found that the District (1) did not provide meaningful consultation to private school
                    officials during the design and development of Set-Aside programs; (2) used Title I funds
                    totaling $8,442,270 to provide Set-Aside services for public school participants, but did
                    not provide equitable services to private school participants; (3) used Title I funds
                    totaling $278,414 to pay for services that did not benefit Title I participants; and (4) did
                    not submit complete Office of Management and Budget (OMB) Circular A-133 audit
                    reporting packages for fiscal years 1999 through 2002.

                    We recommend the Assistant Secretary for Elementary and Secondary Education direct
                    the Michigan Department of Education (MDE) to require that the District (1)
                    immediately develop and implement a comprehensive consulting plan to ensure it
                    consults with private school officials; (2) obtain and submit to MDE signed affirmations
                    from private school officials that consultation occurred; (3) provide an equitable share of
                    Set-Aside services to private school participants in future school years; (4) provide
                    services in the upcoming school year, in consultation with private school officials, to


                        1 The Elementary and Secondary Education Act of 1965 was amended by the No Child Left Behind Act of
                        2001, enacted January 8, 2002.
                        2 Before calculating the per-pupil amount for public and private school children from low income families,
                        the local education agency may set aside Title I funds for district-wide programs.


                              Our mission Is to promote the efficiency, effectiveness, and integrity of the Department's programs and operations.




.---   ---------------------------------------­
Final Audit Report	                                                       ED-OIG/A05-D0021


compensate for the inequitable Set-Aside services to private school participants during
our audit period; (5) restore $278,414 to its Title I allocation for unallowable costs; (6)
submit complete OMB Circular A-133 audit reporting packages; and (7) establish and
implement written policies ensuring it provides an equitable share of Set-Aside services
to private school participants, only charges allocable costs to the Title I program, and
timely submits OMB Circular A-133 audit reporting packages in the future.

We provided a draft of this report to MDE and the District. In its faxed response received
on November 6, 2003, MDE stated that its Office of Field Services is working with the
District to develop a consultation plan and procedures to ensure signed affirmations are
obtained. MDE also stated that it relies on the single audit process to determine
compliance with the requirement to provide equitable services to private school
participants, and to determine whether Title I funds benefited Title I participants.
However, the single audit process for our audit period has not been completed. In
addition, MDE agreed that the District must submit complete OMB Circular A-133
reporting packages, and said it will work with the District to ensure it establishes a
procedure to comply with the reporting requirement. MDE’s response did not cause us to
change our findings or recommendations. We have summarized MDE’s comments after
each finding and included them in their entirety as an attachment.

                                    AUDIT RESULTS

Finding Number 1 	 The District Did Not Provide Consultation To Private School
                   Officials

The District did not consult with private school officials during the design and
development of Set-Aside programs. Although the District met with private school
officials before the start of the 2002-2003 school year, both the District’s Grants
Executive Director and Non-Public Title I Supervisor admitted the District did not
consult with private school officials regarding Set-Aside programs. The Superintendent
and Associate Superintendent for Curriculum for the Archdiocese of Detroit and the
Assistant Superintendent of Lutheran Schools also stated that meetings with the District
did not involve consultation on the Set-Aside programs. These private school officials
were unaware that some of the Set-Aside programs even existed.

Section 1120 (b)(1) of the Act and 34 C.F.R. § 200.10 (a) and 11 (a) (2002) require that a
local education agency consult with appropriate private school officials. To ensure
timely and meaningful consultation, the Act requires that local education agencies consult
with appropriate private school officials during the design and development of agency
programs on issues such as what services will be offered and the size and scope of the
equitable services to be provided to eligible private school children. Section 1120 (b)(4)
of the Act requires that each local education agency maintain and provide to the State
education agency a written affirmation signed by participating private school officials
that consultation has occurred.




                                             2

Final Audit Report	                                                       ED-OIG/A05-D0021


The District did not have procedures in place to ensure it would conduct meaningful Set-
Aside consultation with private school officials, including discussions of services to be
provided, the size and scope of services to be provided, or the service delivery
mechanisms. The District also did not have procedures in place to obtain written
assurances from private school officials that this consultation occurred. The lack of
meaningful consultation and a written assurance increased the risk that services and other
benefits of Set-Aside programs would not address the needs of private school
participants, and would not be equitable to those provided to public school participants.

Recommendations

We recommend that the Assistant Secretary for Elementary and Secondary Education
direct MDE to

1.1 	   ensure the District immediately develops and implements a comprehensive Title I
        consulting plan that lays out how the District will consult with private school
        officials, including the use of Title I funds. This plan should be developed in
        conjunction with private school representatives, and agreed to and signed by
        private school and District officials to ensure meaningful consultation occurs and
        is documented.

1.2 	   ensure the District obtains, in future years, signed affirmations from participating
        private school officials that consultation occurred and submits the affirmations to
        MDE.

1.3 	   conduct a monitoring visit to ensure the District implemented the consulting plan.

Auditee Comments

MDE agreed that the intended level of consultation did not take place, but asserted that
some annual consultation did occur. MDE stated that its Office of Field Services is
working with the District to develop a consultation plan and procedures to ensure signed
affirmations are obtained. MDE also plans to expand materials to assist all Districts with
consultation and delivery of service to participating private schools.

OIG Response

MDE did not provide any documentation such as agendas or meeting minutes to indicate
Set-Aside consultation took place during referenced annual consultation meetings. The
response did not cause us to change our finding or recommendations.




                                              3

Final Audit Report	                                                           ED-OIG/A05-D0021




Finding Number 2 	 The District Did Not Provide Equitable Set-Aside Services to
                   Private School Participants

The District used Title I funds totaling $8,442,2703 to provide Set-Aside programs to
public school children, parents, and teachers, but did not provide equitable services to
private school participants. The District used Title I funds for the following Set-Aside
programs:

Professional Development                                         $ 2,076,333
Instructional Specialists                                        $ 1,851,291
Attendance Centers                                               $ 1,231,5274
Compact Technicians                                              $ 957,315
Research, Evaluation and Testing                                 $ 526,299
Compensatory Education Support                                   $ 512,244
Educational Technology                                           $ 386,591
Curriculum Labs                                                  $ 348,114
Extended Day Kindergarten                                        $ 241,255
Summer Camp                                                      $ 217,552
Reading Recovery Buy-in                                          $    86,405
Children’s Museum Buy-in                                         $     7,344
                                                                 $ 8,442,270

The District did not notify the private school officials of these Set-Aside programs or
allow private school children, parents, and teachers to participate in them. The District’s
Grants Executive Director admitted that these Set-Aside programs were only for the
benefit of public school participants. Officials from the Archdiocese of Detroit and the
Assistant Superintendent of Lutheran Schools stated they were unaware that most of
these Set-Aside programs existed, and private school children, parents, and teachers did
not participate in any of them.

Section 1120 (a)(3) of the Act requires that educational services and other benefits for
private school children be equitable in comparison to services and other benefits for
public school children. Also, 34 C.F.R. § 200.11 (b)(2) states that

        Services are equitable if the LEA — (i) Addresses and assesses the specific
        needs and educational progress of eligible private school children on a
        comparable basis as public school children; (ii) Meets the equal expenditure
        requirements. . . ; and (iii) Provides private school children with an
        opportunity to participate that — (A) Is equitable to the opportunity provided
        to public school children. . . .

3
  Amount consists of Title I funds expended through April 24, 2003, except for the Professional
Development and Compensatory Education Support programs. These programs are based on expenditures
through May 21, 2003.
4
  Total for the Drew, Puritan, and E. McNichols Attendance Centers. The total does not include
unallowable charges to the closed Woodward Attendance Center.


                                                4
Final Audit Report	                                                       ED-OIG/A05-D0021




The District did not have a consulting plan in place with procedures to ensure that it
provided equitable Set-Aside services to private school participants. As a result, private
school participants did not benefit from $8,442,270 of Title I funds. By providing funds
for the Set-Aside programs restricted to public school participants, the District did not (1)
address the specific needs and educational progress of eligible private school participants,
or (2) provide private school participants with an opportunity to participate that was
equitable to the opportunity provided to public school participants.

Recommendations

We recommend that the Assistant Secretary for Elementary and Secondary Education
direct MDE to ensure the District

2.1 	   includes, in its consultation plan developed in response to Recommendation 1.1,
        procedures to ensure it will provide equitable Set-Aside services to private school
        participants. The procedures should include meeting with private school officials
        to discuss their needs regarding Set-Aside services. Based on the needs and
        potential activities discussed, the District should use Title I funds to provide Set-
        Aside services for private school participants.

2.2 	   provides an equitable share of Set-Aside services to private school participants in
        future school years.

2.3 	   provides services in the upcoming school year, in consultation with private school
        officials, to compensate for the inequitable Set-Aside services during the audit
        period.

Auditee Comments

MDE stated that it uses the single audit process to determine whether the District is in
compliance with the requirement to provide equitable Set-Aside services to private
school participants. The single audit has not been completed for the audit period.

OIG Response

MDE did not respond to the recommendations. Therefore, we did not change the finding
or recommendations.

Finding Number 3       Title I Funds Paid Did Not Benefit Title I Participants

The District used Title I funds to pay salaries and fringe benefits for which Title I
participants received no benefits. Before fiscal year 2003 began, the District closed the
Woodward Attendance Center and reassigned its staff. However, the District budgeted
fiscal year 2003 Title I funds for the Woodward Attendance Center and, during the year,
charged Title I for salary and fringe benefits of $278,414.



                                              5
Final Audit Report	                                                       ED-OIG/A05-D0021




OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments,
Attachment A, Paragraph C. 3 (1997) states that a cost is allocable to a particular cost
objective in accordance with relative benefits received.

The District did not have written policies in place to ensure it only charged allocable
costs to the Title I program. Title I funds paid for $278,414 of salary and fringe benefit
charges for which Title I participants received no benefit. Therefore, the costs are
unallowable.

Recommendations

We recommend that the Assistant Secretary for Elementary and Secondary Education
direct MDE to ensure the District

3.1 	   restores $278,414 to its Title I allocation in the upcoming school year to provide
        Title I services to Title I participants.

3.2 	   establishes and implements written policies to ensure it only charges allocable
        costs to the Title I program.

Auditee Comments

MDE stated that it uses the single audit process to determine whether the District is in
compliance with the requirement to use Title I funds for the benefit of Title I participants.
The single audit has not been completed for the audit period.

OIG Response

MDE did not respond to the recommendations. Therefore, we did not change the finding
or recommendations.


Finding Number 4       The District Did Not Submit Complete OMB Circular A-133
                       Audit Reporting Packages To The Federal Audit
                       Clearinghouse

The District did not submit correct OMB Circular A-133 data collection forms or
complete reporting packages to the Federal Audit Clearinghouse (FAC) for fiscal years
1999, 2000, 2001, and 2002. According to the FAC, the District did not submit a correct
data collection form for fiscal years 1999 and 2000, and did not submit a complete
reporting package for fiscal years 2000, 2001, and 2002.

OMB Circular A-133, Audits of States, Local Governments, and Non-Profit
Organizations, Subpart C, Paragraph 320(d) (1997), requires that all auditees submit to
the FAC the data collection form, one copy of the reporting package for the FAC to retain



                                              6

Final Audit Report	                                                      ED-OIG/A05-D0021


as an archival copy, and a copy for each direct federal awarding agency for which audit
findings are reported in the schedule of findings and questioned costs, or the summary
schedule of prior audit findings.

The District has not submitted both a correct data collection form and complete reporting
package for any OMB Circular A-133 audit completed since fiscal year 1998. The
District did not have procedures in place to ensure it would submit to the FAC a correct
data collection form and reporting package for each OMB Circular A-133 audit.

Without correct data collection forms and complete reporting packages, the FAC is
unable to make timely and proper distribution of OMB Circular A-133 audits to federal
agencies. The U.S. Department of Education’s (ED) Office of the Chief Financial
Officer, Post Audit Group, relies on these distributions from the FAC to receive reports
and to ensure that they are resolved. Therefore, by not submitting the required
information, the District is delaying the audit resolution process.

Recommendations

We recommend that the Assistant Secretary for Elementary and Secondary Education
direct MDE to ensure the District

4.1 	   submits, to the FAC, a correct data collection form and complete reporting
        package for OMB Circular A-133 audits completed in fiscal years 1999, 2000,
        2001, and 2002.

4.2     	establishes written policies and procedures to ensure it timely submits a correct
        data collection form and complete reporting package for each OMB Circular A-
        133 audit in the future.

Auditee Comments

MDE agreed that the District must submit complete OMB Circular A-133 reporting
packages to the FAC. MDE said it would work with the District to ensure it establishes a
procedure to comply with the reporting requirement.

                                     BACKGROUND

The No Child Left Behind Act of 2001 (Public Law 107-110) authorized the Title I
program during our audit period. The program provides funds for supplemental
educational services for eligible public and private school students living in high-poverty
areas. The program provides, through state educational agencies, formula grants to local
educational agencies to help low-achieving children meet challenging state curriculum
and student performance standards in core academic subjects. Title I program services
target children who are failing, or at most risk of failing, to meet state academic
standards. Before calculating the per-pupil amount for public and private school children
from low income families, the local education agency may set aside Title I funds for



                                             7

Final Audit Report                                                                     ED-OIG/A05-D0021


district-wide programs. Allowable Set-Aside programs are contained in 34 C.F.R. §
200.27.

MDE allocated $121,902,716 in Title I funds to the District for fiscal year 2003. Of this
amount, the District budgeted a total of $61,301,019 for Set-Aside programs, as outlined
below:

Transportation and Supplemental Educational Services                    $24,231,7745
Central Programs (public school participants)                           $34,279,677
Private Schools Allocation                                              $ 2,789,5686
                                                                        $61,301,019

The District budgeted the $34,279,677 for Central Programs for the following uses:

Instructional Specialists                                               $ 6,093,622
Professional Development                                                $ 5,835,703
Indirect Cost (4.25%)                                                   $ 4,165,076
Preschool                                                               $ 3,805,638
Headstart Supplement                                                    $ 3,308,203
Attendance Centers                                                      $ 1,846,454
Compact Technicians                                                     $ 1,573,274
Parental Involvement                                                    $ 1,188,667
Office of Compliance                                                    $ 1,116,074
Research, Evaluation, Testing                                           $ 1,004,183
Curriculum Labs                                                         $ 844,949
Educational Technology                                                  $ 746,154
Extended Day Kindergarten                                               $ 616,646
Compensatory Education Support                                          $ 596,574
Enrichment Program Institutionalized
 Children - Neglected                                                   $ 528,072
Summer Camp                                                             $ 492,328
Social Work                                                             $ 175,577
Reading Recovery Buy-In                                                 $ 145,000
Children’s Museum Buy-In                                                $ 102,642
Homeless                                                                $   94,841
                                                                        $34,279,677

The consultation and equitability requirements of the Act do not apply to Transportation
and Supplemental Educational Services, Indirect Cost, Preschool, Headstart Supplement,
Enrichment Program Institutionalized Children-Neglected, Social Work, and Homeless.




5
  Represents funds set-aside for students attending public schools identified for school improvement, as 

required by Sections 1116 (b) (1) (e), and 1116 (b) (10) of the Act. 

6
  This amount includes per-pupil allocation, Central Support, and Parental Involvement. 



                                                     8
Final Audit Report	                                                                    ED-OIG/A05-D0021


                       OBJECTIVE, SCOPE, AND METHODOLOGY 


The objectives of our audit were to determine whether the District (1) consulted with
private school officials prior to making decisions concerning Set-Aside services provided
from Title I funding, and (2) provided equitable Set-Aside services and other benefits to
private school participants with Title I funds. Our initial audit period was from January
8, 20027, through March 31, 2003. However, after beginning our field work, we
modified the audit period to July 1, 20028, through April 24, 2003, based on the
expenditure reports the District provided. Based on additional expenditure data the
District provided, we further extended the audit period for Professional Development,
Parental Involvement, and Compensatory Education Support through May 21, 2003, and
for the Woodward Attendance Center through May 31, 2003.

To accomplish our objectives, we

    1. 	     reviewed the financial statement and OMB Circular A-133 audit report for the
             year ended June 30, 2002, prepared by an independent accountant;
    2. 	     reviewed the District’s 2003 Consolidated Application;
    3.       r	 eviewed the District’s organization chart, expenditure reports, documentation
             of the uses of Title I funds for Set-Aside services, and other documents
             provided by District and private school officials;
    4. 	     reviewed MDE’s District Study Guide, dated December 3, 2002, and its
             policies and procedures for monitoring the District’s compliance with
             consultation and equitability requirements; and
    5. 	     interviewed various District employees, Archdiocese of Detroit officials, a
             Lutheran Schools official, MDE personnel, and ED personnel.

The Superintendent of the Archdiocese of Detroit contacted the Office of Elementary and
Secondary Education (OESE) with a concern about the District’s lack of consultation and
poor quality services. OESE also received a complaint from a citizen stating that the
District had no parental involvement programs for public school children. OESE visited
the District to discuss parental involvement and talked to parents, the citizen who raised
the complaint, and the District. It did not look at parental involvement activities for
private school participants. OESE found that the District and MDE were not in
compliance with parental involvement because the District did not provide parental
involvement activities. We selected the District based on these concerns.

We conducted our field work at the District’s administrative offices in Detroit, Michigan,
during the period April 21, 2003, to May 9, 2003, and at MDE’s administrative offices in
Lansing, Michigan, during the period April 30, 2003, to May 1, 2003. We discussed the
results of our audit with District and MDE officials on July 9, 2003.


7
  Date the No Child Left Behind Act was enacted.

8
  We modified the audit period from January 8, 2002 to July 1, 2002, because the District did not separate

transactions prior to No Child Left Behind Act and after the law went into effect and because this was the 

first full year the District had to follow the No Child Left Behind Act. 



                                                     9
Final Audit Report                                                        ED-OIG/A05-D0021


Our audit was performed in accordance with generally accepted government auditing
standards appropriate to the scope of audit described above. To achieve our audit
objectives, we did not rely on computer-processed data.

                     STATEMENT ON MANAGEMENT CONTROLS

We did not assess the District’s management control structure applicable to Title I funds
because it was not necessary to achieve our objectives. However, our audit disclosed
instances of non-compliance with federal law, regulations, and cost principles. These
instances led us to believe weaknesses existed in the District’s controls over Title I funds.
These weaknesses and their effects are discussed in the AUDIT RESULTS section of
this report.

                            ADMINISTRATIVE MATTERS

Statements that managerial practices need improvements, as well as other conclusions
and recommendations in this report, represent the opinions of the Office of Inspector
General. Determinations of corrective action to be taken will be made by the appropriate
ED officials.

If you have additional comments or information that you believe may have a bearing on
the resolution of this audit, you should send them directly to the following ED official,
who will consider them before taking final Departmental action on this audit.

                       Assistant Secretary
                       Office of Elementary and Secondary Education
                       U.S. Department of Education
                       400 Maryland Avenue, SW, Room 3W315
                       Washington, DC 20202

It is ED’s policy to expedite the resolution of audits by initiating timely action on the
findings and recommendations contained therein. Therefore, receipt of your comments
within 30 days would be greatly appreciated.




                                             10
                                             10

Final Audit Report                                                     ED-OIG/A05-D0021


In accordance with the Freedom ofInformation Act (5 U.S.C. §552), reports issued by
the Office of Inspector General are available to members of the press and general public
to the extent information contained therein is not subject to exemptions in the Act.

                                             Sincerely,



                                                          w
                                             Regional Inspector General
                                             for Audit


Attachment

cc:     Dr. Kenneth Stephen Burnley, CEO, Detroit City School District




                                            11 

ED-OIG/A05-D0021                                                                                                              Attachment




                                                         STA·t'E O F MICHIOAN
                                                DEPARTMENT OF E DU CATION                                         MIC~~
                                                                                                                  EducatIOn
                                                                 LANSING
                                                                                                                TMOfI'IAS O. WATKINS, JR.
    JENNIFER Il0l , GRANHOt.fI'I                                                                                   tu ~(RIN"'NDENTOF
         GOVERNO R                                                                                                 PU8UC ONSTRUCTlON




              OcIObcr 17,2003


              Mr. RichardJ . Dowd
              United States Department of Education
              Office of Inspe<:tor General
              III North Canal Stm:t. Suite 940
              Chicago, IL 60606

               Dear Mr. Dowd:

              The Michigan Department of Education re«ived the dmft audit report of the results of the audit of the
              Detroit City School District's administration of Title I, Part A of the Elementary and Secondary
              £docation Act of 1965, as ammded, Sct-Aside prognms for the period July I , 2002 , through May 3 1,
              2003. The l udit requiml a dTall ~ from the Detroit C ity Sehool district and the preliminary
              version of the district's response was received by the Michigan Department of Education 0f1 Friday,
              Oetober 10, 2003.

               The Office ofField Services, which manages tbe Title I program in the department, is ~viewing the
               respoIl5C from Detroit City Sehool District, and working with the district throughout thi s n:view to
               provide technical assistance. "The assistance will foo:::us on the develo pment of a consultation plan and
               proctdu~s to ensure that signed affirmations an: obtained. The offi ce plans to expand materials to assist
               all disaicil with consultation and delivery of service to participating pri vale schools.

               If you have additional questions, please do not hesitale to contact the Office ofField Servi ces al
               5 17-373-4 588.

               Sincen:ly,



               Tom Watkins

               Allachment




                                                         ITATI! BOARDOI' I!OUCATION

                                   IIA T""::EN N . STRAUS - PRESIDENT • HlER8ERT S , ~R _ VICE PftESIOENT
                              CAROlYN~ .   CI.IRTIN _ SECRETARY . _WINE YAREDMCGOIRE _ NA.S8E DELEGATI!
                                                      JOHN C . AUSTIN • EllZA8ETH w. BALlER
                                                   R£GlNAlD .... T\JRNER • EILEEN LAPPIN ""'ISER

                                    _WEST AlLEGAN STREET •        P,O.aox_ .          L.ANSING, ...ICli<GAN._
                                                     .........mid'>iCI ...._ _ • (817) 373-3:U.




-




                                                                     1

ED-OIG/A05-D0021                                                                                            Attachment




                                           Draft Audit Findings Response
                                                 October 17, 2003




          Finding No. I          Tbe District Did No t Provide Consuluulon To Pri Yaie School Officials

          The department agrees thaI the intended level of consultation did nOI talce place, however, the
          department asserts that some consultation did occur annually.


          Finding No.2           The Diuriel Did Not Provide Equitable Set· Aside Ser vices To Pri vate
                                 Scbool Participants

          The department uses a singl e audit process to delenninc the district's compliance with this
          requirement. The single audit has not been completed for the period oflhis review. The stale
          does have a Mi chigan Audit Manual, which is updated annually to ensure accurate and timely
          audits.


          Finding No.3           Title I Funds Paid Did Not Benefit Title I Part icipants

          This finding would also require data from the single audit.


          Finding No. 4          Tbe District Did Not Submil Complete OM.8 C ircular A-JJJ Audil
                                 Reporting Plckagn To The Federal Aud it Cleuinghouse

          The OMB Circular A-I JJ to the Federal Audit Clearinghouse is a standard part of the
          department's process. The department does agree that the district must submit complete
          documents. The department does oot agree with the recommendat ion lhat the Michigan
          Department of Education add additional written policies and procedures. The requirement to
          report is in place. The department rc:ceives audits in a timely maimer and reviews them in a
          timely manner. The department will work with Detroit City School District to ensure that a
          procedure is established to compl y with this reporting req uirement.




· --


                                                         2

